Important Information about your FirstRewards® World Mastercard®
Effective Date: September 1, 2021
CARDHOLDER AGREEMENT
PRICING AGREEMENT

INTEREST RATES & INTEREST CHARGES
Annual Percentage Rate (APR) for Purchases
and Balance Transfers

3.99%introductory APR for six months after account opening.
After that, your APR will be 7.25%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

Penalty APR and When it Applies

24.25%
This APR will vary with the market based on the Prime Rate.
29.24%
This APR will vary with the market based on the Prime Rate.
This APR may be applied to your account if you make a late payment.
How Long Will the Penalty APR Apply?
If your APRs are increased for this reason, the Penalty APR will apply until you
make six consecutive minimum payments when due.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date of each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50

For Credit Card tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore/
FEES

Annual Fee

None

Transaction Fees
Balance Transfer

Either $10 or 3% of the amount of each transfer, whichever is greater.

Cash Advance and Convenience Checks

Either $10 or 4% of the amount of each cash advance and convenience
check, whichever is greater.

Foreign Transaction
International transaction fee

3% of the transaction amount in U.S. dollars.

Penalty Fees
Late Payment

Up to $10.00

Returned Payment

Up to $30.00

FirstRewards® World Mastercard® Intro (Tier A) 0921 11PSCLR

How We Will Calculate Your Balance:We use a method called "average daily balance (including currenttransactions)." See
Balance Computation Method within the Pricing Agreement for more details.
Loss of Introductory APR:We may end your introductory APR and apply the Penalty APR if you make a latepayment. The Penalty
APR will vary with the market based on the Prime Rate.
Billing Rights:Information on your rights to dispute transactions and how to exercise those rights is providedin your Cardholder
Agreement.
PRICING AGREEMENT CONTINUED
1. Terminology.For purposes of this Pricing Agreement, and the Account Agreement, (collectively referred to as the “Cardholder
Agreement”) each Account Holder/Cardholder is referred to as “cardholder” or "you", whether one or more, and First Interstate
Bank is referred to as “Bank,” "Issuer,” "us," or "we".
2. Interest Rates.
a. Periodic Rate and Annual Percentage Rate.The Annual Percentage Rate corresponds to a Periodic Rate. The Annual
Percentage Rate is equal to the Periodic Rate multiplied by 12 and the Periodic Rate is equal to the Annual Percentage
Rate divided by 12. Rates other than the introductory rate vary with the market based on the Prime Rate as described
further below.
b. Purchases and Balance Transfers.
i. Introductory Rate.The introductory rate for Purchases and Balance Transfers is 0.33% per month,
corresponding to an Annual Percentage Rate of 3.99%. Unless a late payment is made and the introductory rate
is ended, the introductory rate applies for six months.
ii. The Periodic Rate for subsequent Purchases and Balance Transfers and all existing balances related to
Purchases and Balance Transfers shall be 0.6% per month, corresponding to an Annual Percentage Rate 7.25%.
The Periodic Rate and corresponding Annual Percentage Rate for Purchases and Balance Transfers varies with
the Prime Rate (defined below) and therefore may decrease or increase as the Prime Rate varies. The Annual
Percentage Rate for Purchases and Balance Transfers is determined monthly on the first day of the billing cycle
by adding 4 percentage points to the Prime Rate.

c. Cash Advances.The Periodic Rate for Cash Advances is 2.02% per month, corresponding to an Annual Percentage
Rate of 24.25%. The Periodic Rate and corresponding Annual Percentage Rate for Cash Advances varies with the Prime
Rate (defined below) and therefore may decrease or increase as the Prime Rate varies. The Annual Percentage Rate for
Cash Advances is determined monthly on the first day of the billing cycle by adding 21 percentage points to the Prime
Rate.
d. Penalty Rate.The penalty Annual Percentage Rate will apply if a required payment is one time delinquent over sixty (60)
days. The Periodic Rate that will apply as a penalty to all balances is 2.44% per month, corresponding to an Annual
Percentage Rate of 29.24%. The Periodic Rate and Annual Percentage Rate applicable as a penalty varies with the
Prime Rate and therefore may decrease or increase as the Prime Rate varies. The Annual Percentage Rate applicable
as a penalty is determined monthly on the first day of the billing cycle by adding 25.99 percentage points to the Prime
Rate.
e. Prime Rate.The Prime Rate used for every adjustment referenced above is the highest "U.S. prime rate" as published in
the "Money Rates" section of The Wall Street Journal on the first publication day of the month in the month preceding the
change.
f. Billing Cycle.Each monthly statement reflects a billing cycle. A billing cycle is a time period that ends on a closing date
determined by us and begins on the day after the closing date of the previous billing cycle.

3. Balance Computation Method.As indicated above, we use a method called "average daily balance (including current
transactions)" to calculate your balance. We figure the interest charge on your Account by applying the Periodic Rate to the
"average daily balance" of your Account. To get the "average daily balance" we take the beginning balance of your Account
each day, add any new purchases and advances, and subtract any unpaid interest or other finance charges and any payments
or credits. This gives us the daily balance. Then, we add up all the daily balances for the billing cycle and divide the total by the
number of days in the billing cycle. This gives us the "average daily balance."
4. Minimum Payment.The minimum payment required is the New Balance shown on your statement if the amount is equal to or

FirstRewards® World Mastercard® Intro (Tier A) 0921 11PSCLR

less than $20.00. If the New Balance shown on your statement exceeds $20.00, the minimum payment is 3.00% of that portion
of the New Balance which does not exceed your credit limit (rounded to the nearest dollar), or $20.00, whichever is greater, plus
the entire portion of the New Balance in excess of your credit limit, plus any amount past due.
5. Balance Transfer, Cash Advance and Convenience Check Fees.A Balance Transfer Fee of either $10.00 or 3.00% of the
amount of each transfer, whichever is greater, will apply. A Cash Advance Fee of either $10.00 or 4.00% of the amount of each
cash advance, whichever is greater, will apply if you obtain funds through an automated teller machine (ATM) or a financial
institution, make a wire transfer or obtain a money order. A Convenience Check Fee of either $10.00 or 4.00% of the amount for
each convenience check will apply. We will begin charging interest on Balance Transfers, Cash Advances and Convenience
Checks on the transaction date.
6. Foreign Transactions.If you make a purchase or cash advance in foreign currency, the transaction will be converted into U.S.
Dollars by Mastercard®. The exchange rate applied to such transactions is applied on the date that the transaction is processed
and is either (i) a wholesale exchange rate selected by Mastercard®, or (ii) a government-mandated rate. The exchange rate
used on the processing date may differ from the rate that would have been used on the transaction date or the Credit Card
statement posting date. In addition to the exchange rate, we will charge the applicable international transaction fee.
7. Late Payment Penalty Fee.If the minimum required payment is not received within ten (10) days after the payment due date,
the late payment penalty fee will be imposed.
8. Balance Transfers.Balance Transfers are subject to the Balance Transfer Fee disclosed in the Pricing Agreement. We will
evaluate your Balance Transfer requests upon receipt. The total amount of your requests, including fees and interest charges,
cannot exceed your available credit. If your Balance Transfer requests exceed your credit limit, we may either decline your
Balance Transfer request or send less than the full amount requested to the designated payees. Each Balance Transfer will
reduce your available credit just like any other transaction. It may take up to three weeks to process your Balance Transfer(s),
so you may still need to make payments to your other accounts to keep them current. We will not process any Balance Transfer
requests for any other account or loan that is issued by us.
9. Overdraft Protection.Overdraft Protection is an available option on your Account but requires you to enroll and qualify for this
service separately. Overdraft transfers to your eligible First Interstate Bank deposit account from your First Interstate Bank credit
card account will be subject to the Cash Advance Annual Percentage Rate disclosed under the Pricing Agreement of this
Cardholder Agreement. The Cash Advance Transaction Fees do not apply.
10. Expedited Credit Card Production and Delivery Charge.Upon request, we will rush your Credit Card and charge you a onetime fee of $28.50.
11. Expedited Payment Fee.You may be charged a convenience fee of up to $15.00 to make an expedited payment over the
phone with the assistance of a live customer service representative.
12. Research Charges.We will charge $20 per hour, $10.00 minimum per project and $1.00 per Credit Card statement.
13. Security Interests.If you have other loans or credit extensions from us, or take out other loans or credit extensions with us in
the future, collateral securing those loans or credit extensions may also secure your obligations under this Cardholder
Agreement. However, unless you expressly agree otherwise, your household goods and dwelling will not secure your obligations
under this Cardholder Agreement even if we have, or later acquire, a security interest in the household goods or a mortgage on
the dwelling. If you have executed a written agreement granting a security interest in any deposit accounts (certificates of
deposit or checking, savings, or share accounts) or other funds held by us to secure your obligations under this Credit Card
plan, such accounts and/or funds are additional security for your obligations to us arising from the use of your Credit Card.

ACCOUNT AGREEMENT – TERMS GOVERNING THE USE OF YOUR CREDIT CARD
By signing or using the Credit Card to be issued by us, you acknowledge receipt of the Cardholder Agreement and agree with us as
follows:
1. Credit Card Use. You may use your Credit Card to purchase goods and services ("Purchases") from participating merchants.
2. Promise to Pay. You shall be liable and agree to pay us for Purchases made by, or for Cash Advances extended to, you or
anyone else using such Credit Card unless the use of such Credit Card is by a person other than you (a) who does not have
actual, implied or apparent authority for such use, and (b) from which you received no benefit. Additionally, you shall be jointly
and severally liable and agree to pay for all Purchases and Cash Advances obtained through the use of any other Credit Card
bearing your Account number that has been issued to another person by reason of such person being a member of your family,
or otherwise issued upon your request (all such Credit Cards bearing your Account number are herein collectively called
"Related Credit Cards").
3. Annual Fee. You agree to pay to us an annual fee (if and as stated in the Pricing Agreement Disclosures) for participation in our

FirstRewards® World Mastercard® Intro (Tier A) 0921 11PSCLR

Credit Card plan. Such annual fee shall be imposed whether or not you use the Credit Card to obtain Purchases and Cash
Advances. The annual fee shall be charged to your Account each year in the month of our choice. The annual fee is not
refundable in the event of termination of the Account by either you or us unless otherwise provided for by law.
4. Our Right to Cancel Your Account. We can cancel your Account at any time, or reduce the amount of your credit line, without
notice to you, except in those situations where notice is required by law. If we cancel your Account, you agree to destroy all
Credit Cards issued on your Account by cutting them in half and returning them to us. You will continue to be responsible for full
payment of the balance on your Account and all charges to your Account, including those not yet received by us, as well as
subsequent interest and other charges. Each Credit Card is our property, and you agree that the Credit Cards are not
transferable and to surrender any Credit Card upon demand.
5. Credit Limit. You shall not use the Credit Card or permit the use of Related Credit Cards to obtain Purchases or Cash Advances
which will increase your indebtedness to us to an amount in excess of the limit established by us.
6. Credit Card Acceptance. All Purchases and Cash Advances are subject to the approval of the Seller and Cash Advancing Bank,
respectively, and we shall not be responsible for refusal by any Seller or Cash Advancing Bank to honor the Credit Card or any
Related Credit Card. Any refund, adjustment or credit allowed by Seller shall not be by cash but rather by a credit advice to us,
which shall be shown as a credit on your Account statement with us.
7. Statements. We will send to you, at monthly intervals determined by us, a statement reflecting for the prior monthly period all
Credit Card and Related Credit Card transactions. Such statement shall be deemed correct and accepted by you and all holders
of Related Credit Cards unless we are notified to the contrary in writing within 60 days of mailing of such statement. You will pay
such statement by remitting to us within 25 days of the closing date reflected on the statement either the full amount billed or, at
your option, an installment equal to at least the required minimum payment stated above.
8. Interest. Interest on Balance Transfers, Cash Advances and Purchases will be charged in accordance with the calculation
method referred to in the Pricing Agreement. The rate of interest shall be established by us from time to time, but shall never
exceed the maximum rate permitted by law.
9. Default, Acceleration and Security. You will be in default, and we may, without notifying you, temporarily suspend your credit,
close your Account, cancel all Credit Cards issued on it and require immediate payment of your entire balance if any of the
following occurs:
a. You fail to make a payment when it is due.
b. You do not follow the terms of this Agreement in any way.
c. You have made a false or misleading statement on the application for your Account.
d. You fail to pay any other loan you owe us.
e. You become insolvent or die.
f. There is an attachment, execution or levy against your property or you make an assignment for the benefit of creditors.
g. A bankruptcy is filed by or against you or your spouse.
h. A guardian, conservator, receiver, custodian or trustee is appointed for you.
i. You are generally not paying your debts as they become due.
j. There has been a material adverse change in your financial standing.

You agree to pay all costs incurred by us in collecting our indebtedness or in enforcing this Cardholder Agreement, including
reasonable attorney’s and paralegal fees and also those costs, expenses and attorney’s and paralegal fees incurred in
appellate, bankruptcy and post-judgment proceedings, except to the extent such costs, fees or expenses are prohibited by law.
10. Closing Your Account. You may close your Account at any time. If you close your Account, in order to avoid the accrual of
interest and other fees, you must immediately pay everything you owe us, including any amounts owed but not yet billed. If you
do not pay, the Account will continue to accrue interest and other fees, and will remain subject to all the terms and conditions of
this Cardholder Agreement. Upon closing the Account, you also agree to destroy all Credit Card(s) and any unused
Convenience Checks. If you close your Account, Credit Cards or Convenience Checks may not be used.
11. Change in Terms of Your Account. We can change any terms of your Account at any time. We will provide you with such notice
as is required by law by mailing a notice to you at the latest address shown in our records.
12. Notification of Changes. You agree to notify us within 20 days of any change in name, mailing address, telephone number or
place of employment.

FirstRewards® World Mastercard® Intro (Tier A) 0921 11PSCLR

13. Governing Law. Except to the extent that Federal law is applicable, the validity, construction and enforcement of this Cardholder
Agreement and all matters arising out of the issuance and use of the Credit Card and your Account shall be governed by and
interpreted in accordance with the laws of the State of Montana regardless of where you may reside or use your Account.
14. Liability for Unauthorized Credit Card Use/Lost or Stolen Credit Card. If you notice the loss or theft of your Credit Card or
possible unauthorized use of your Credit Card, you should write to us immediately at:

First Interstate Bank
Payment Services
P.O. Box 30918
Billings, MT 59116-0918
Or call us at (866) 839-3485
You will not be liable for any unauthorized use that occurs after you notify us. You may, however, be liable for any unauthorized
use that occurs before your notice to us. In any case, your liability will not exceed $50.00.
You agree to notify us immediately if your Credit Card is ever lost or stolen or if any unauthorized use may have occurred. You
agree to assist us in determining the facts, circumstances and other pertinent information relating to any loss, theft or possible
unauthorized use of your Credit Card and to comply with such procedures as we may require in connection with our
investigation, including assisting in the prosecution of any unauthorized user.
15. Telephone Monitoring. You agree that we and our agents or service companies may monitor and/or record any telephone
communications with you or any cardholder.
16. Payments must be made to us in U.S. Dollars drawn on a U.S. bank. Subject to applicable law, payments may be applied to
what you owe us in any manner we choose in our sole discretion. We may accept checks marked "Payment in Full" or with
words of similar effect without losing any of our rights to collect the full balance of our Account.
17. Reevaluation of Credit. We can reinvestigate and reevaluate any information you provided on your credit application at any time,
and in the course of doing so, we may ask you for additional information, request credit bureau reports and/or otherwise verify
your current credit standing. You also acknowledge that we may periodically evaluate your creditworthiness utilizing a credit
scoring process. The results of these investigations and evaluations could lead to a reduction or termination of your credit limit,
changes in the APR applicable to your Account, or changes in other terms of your Account. As required by law, you will be
notified of these changes.
18. Release of Information. You agree that we may release information to others, such as credit bureaus, regarding the status and
history of your Account. However, we are not obligated to release any such information to anyone unless we are required by law
to do so.
19. Prohibited Transactions. You shall not use the Credit Card for any illegal transaction. In addition, Federal Law, the Unlawful
Internet Gambling Enforcement Act of 2006 prohibits commercial customers from conducting transactions related to illegal
Internet gambling. As our credit card customer you agree to notify us if your Account is ever used for Internet gambling, even if
you believe the activity to be legal. If you do not, we may close your Account.
20. If, for any reason, we do not make use of any of our rights under this Cardholder Agreement on a particular occasion, that will
not limit our rights in the future in any way.
21. Mastercard® Rules and Regulations. You agree that your Account shall be subject to all applicable rules and regulations of
Mastercard® Worldwide, as applicable, as well as all applicable laws. If there is any conflict between the provisions of this
Cardholder Agreement and the rules and regulations of Mastercard® Worldwide, the rules and regulations of Mastercard®
Worldwide shall control.

YOUR BILLING RIGHTS: KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
First Interstate Bank
Payment Services
FirstRewards® World Mastercard® Intro (Tier A) 0921 11PSCLR

PO Box 30918
Billings, MT 59116-0918
You may also contact us by email at creditcards@fib.com
In your letter, give us the following information:
Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your Credit Card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:

FirstRewards® World Mastercard® Intro (Tier A) 0921 11PSCLR

1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your Credit Card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your Credit Card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
First Interstate Bank
Payment Services
PO Box 30918
Billings, MT 59116-0918
You may also contact us by email at creditcards@fib.com
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Important Notice – Please Read Carefully
We may report information about your account to
credit bureaus. Late payments, missed payments, or
other defaults on your account may be reflected in your
credit report.
Please contact Payment Services with any questions
about this notice at 1-888-833-3454.

FirstRewards® World Mastercard® Intro (Tier A) 0921 11PSCLR

FACT ACT NOTICE

Your Credit Report and the Price You Pay for Credit

What is a credit report?

A credit report is a record of your credit history. It includes information
about whether you pay your bills on time and how much you owe to creditors.

How did we use your credit
report?

We used information from your credit report to set the terms of the credit we
are offering you, such as the Annual Percentage Rate.
The terms offered to you may be less favorable than the terms offered to
consumers who have better credit histories.

What if there are mistakes in
your credit report?

You have a right to dispute any inaccurate information in your credit report.
If you find mistakes on your credit report, contact Equifax, which is the
consumer reporting agency from which we obtained your credit report.
It is a good idea to check your credit report to make sure the information it
contains is accurate.

How can you obtain a copy of
your credit report?

How can you get more
information about credit
reports?

Under federal law, you have the right to obtain a copy of your credit report
without charge for 60 days after you receive this notice. To obtain your free
report, contact Equifax:
By telephone:

Call toll-free: 1-800-685-1111

By mail:

Mail your written request to:
PO Box 740241
Atlanta, GA 30374

On the web:

Visit www.equifax.com/fcra/

For more information about credit reports and your rights under federal law,
visit the Consumer Financial Protection Bureau's web site at
www.consumerfinance.gov/learnmore

Department of Defense Credit Card Disclosure
Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or
her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to
the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products
sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees
for a credit card account).
Payment obligation for a consumer credit card is as follows:
The minimum payment required is the New Balance shown on the statement if the amount is equal to or less than
$20.00. If the New Balance shown on the statement exceeds $20.00, the minimum payment is 3.00% of that
portion of the New Balance which does not exceed your credit limit (rounded to the nearest dollar), or $20.00,
whichever is greater, plus the entire potion of the New Balance in excess of your credit limit, plus any amount past
due.
Please call (888) 833-3445 to have this Disclosure provided to you orally.

FIRSTREWARDS® PROGRAM RULES
The FirstRewards Program is a promotional rewards program offered by First Interstate Bank and administered
by our Program Administrator, BreakAway Loyalty LLC. The following FirstRewards Program Rules apply to every
account holder, whether one or more, on a First Interstate Bank FirstRewards Mastercard® Account
EARNING FIRSTREWARDS POINTS
The FirstRewards Program applies to all qualifying purchases charged to your FirstRewards Mastercard as
follows: for every one dollar charged for purchases, you will receive one FirstRewards Point. The FirstRewards
Program is based on net purchases and FirstRewards Points are not earned for finance charges, fees, cash
advances, convenience checks, ATM withdrawals, foreign transaction currency conversion charges or insurance
charges posted to your account. FirstRewards Points are deducted for returns. First Interstate Bank shall resolve
all questions as to what constitutes a qualifying purchase. All such resolutions or determinations by First
Interstate Bank are final.
Eligible consumer and business FirstRewards Mastercard Accounts will be auto-enrolled in the FirstRewards
Program upon account opening and earned FirstRewards Points will accrue in the FirstRewards Account
associated with the FirstRewards Mastercard Account. FirstRewards Points do not expire.
PURCHASING FIRSTREWARDS POINTS
FirstRewards Points can also be purchased. A minimum of 2,000 FirstRewards Points may be purchased at a
rate of $.02 per point and must be purchased in 1000 point increments. The maximum number of FirstRewards
Points that can be purchased during any 6 month period is 25,000. These purchases must be charged to your
FirstRewards Mastercard.
REDEMPTION OF FIRSTREWARDS POINTS
FirstRewards Points can be redeemed, in increments specified on the FirstRewards Program website, for Reward
items such as merchandise, travel, gift cards, charitable donations or special promotional offers by visiting the
website, rewards.firstinterstate.com, or by calling the toll-free number 1-888-216-2893. You may select
Rewards from any level as long as you have a sufficient number of FirstRewards Points available in your
FirstRewards Account at the time of your redemption.
FirstRewards Point requirements assigned to any Reward are subject to change from time to time without
notice, and Rewards may be substituted at any time. Should a Reward be discontinued, it will be replaced with
a Reward of equal or greater value or, if no suitable substitute is available, you will be advised to make an
alternative selection or your FirstRewards Points may be returned to your FirstRewards Account.
FirstRewards Points cannot be used with any other offer, promotion or discount; or earned from or transferred
to any other credit and/or debit card, account or rewards program, unless otherwise specified. In the event
you redeem unearned points, your account may be charged for the actual cash difference between the cost of
the Reward redeemed and the net value of the actual FirstRewards Points available.

REWARDS
Rewards are provided by Merchants that participate in the FirstRewards Program. The terms and conditions
relating to the purchase of specific Rewards and their use are available by visiting the website
rewards.firstinterstate.com. Rewards offerings are subject to availability and may change at any time without
notice.
Airline tickets The list of airline, hotel, rental car, cruise, vacation package or experience companies and any
other listed award available in the Program is subject to change and may be discontinued in whole or in part
without notice. All travel awards are subject to the specific terms and conditions and rules and restrictions
imposed by the individual travel companies, airlines, hotels, rental car, cruise line, vacation package or
experience provider companies. Compliance with these terms and conditions and rules and restrictions is the
responsibility of the Participant. All reservations are made subject to the conditions of carriage, supply or
business of the party providing the service, including any exclusions and limitations of liability. You are
responsible for paying a $30.00 redemption fee at the time of redemption and any overages or additional fares
added outside of standard redemption.
Geographic restrictions may apply. The information and descriptions given about the travel rewards are based
on the inquiries made and are believed to be accurate, but we offer no warranty or representation on the
information provided. You are responsible for ensuring that the name(s) on the reservation exactly match the
identification required. You or the reward recipient are responsible for any federal, state or local income or
other taxes or other fees or gratuities, if applicable. Special requests can be made but are not guaranteed. Fees,
taxes and charges may apply, depending on the request.
Government issued photo identification is required for all domestic travel. Additional identification such as a
Passport, Visa and certain health requirements may be required for travel outside the United States. It is Your
or the reward recipient’s responsibility to obtain proper travel identification, documentation, and/or
inoculations for the destination. It is Your or the reward recipients responsibility to consult with your Doctor for
up-to-date medical travel information well before travel. You or the reward recipient is responsible for paying
the cost of any items required for travel. Certain restrictions may apply to travel certificates, tickets and
documents. Travel certificates, tickets and documents are not exchangeable, refundable, transferable or
redeemable for cash, and cannot be combined with any other discounts, coupons or rewards. If an electronic
method of distribution is not applicable, all travel certificates, tickets and documents will be delivered via a
traceable method and will not be replaceable in the event of loss, destruction or theft. You may request travel
certificates, tickets and documents to be delivered by overnight carrier and You agree to pay the associated
additional delivery fees. To cancel or change travel reservations, if applicable and allowed by the specific
Supplier, please call a travel representative. Cancellations or changes may result in Supplier imposed penalties
and/or additional program fees which will be disclosed to You at that time. If Your travel reward is affected by
involuntary cancellation due to weather, war, terrorism, epidemic outbreak, acts of civil unrest, natural
disasters, or other force majeure events, cancellation fees may be waived at the discretion of the Supplier. The
Supplier will collect and remit taxes to the applicable taxing authorities. Taxability, the appropriate tax rate and
the type of applicable taxes vary greatly by Supplier. If a Supplier is located within a certain jurisdiction, the
charge to Your payment card for taxes and fees includes a tax that Montrose Travel is required to collect and
send to the jurisdiction owed on amounts retained as compensation for services. Montrose Travel is not able to
facilitate a rebate for applicable Goods and Services Tax ("GST") or Value Added Tax (“VAT”) if You are using
Services to book international accommodations. Government imposed departure or entry taxes may not be
included in ticket taxes. You or the reward recipient should be prepared to pay these taxes in cash at the travel
location. If a travel award redemption results in a cardholder payment card charge, the card may be charged by
either the Travel Supplier (e.g. Airline, Cruiseline) or by the Program Travel Rewards Provider, Montrose Travel,
and appear on your statement as applicable (e.g. MT*BREAKAWAY AIR or MONTROSE TRAVEL). Depending on
the award and how many rewards you redeemed, the total cost charged to your payment card may appear as
more than one charge on your payment card statement. When combined, these separate card charges will equal
the total cost to be charged to your payment card for this award redemption, as authorized during the booking

process for the award. These travel program rules, combined with the general program terms and conditions,
and any other rules established by FirstRewards, constitute the full set of program rules.
Hotel Certificates/Gift Cards, once issued are non-refundable and non-cancelable. You are responsible for
making hotel reservations. Check with the hotel regarding participation and availability at the time of
reservation.
Cruise Rewards, once booked, are non-refundable and non-cancelable. All cruise Rewards must be booked at
least sixty (60) days prior to the requested sailing date. Cruise Rewards are based on double occupancy for an
interior cabin. At least one member sailing must be 21 years of age or older. Reservation changes are subject
to change fees imposed by the cruise line. You are responsible for paying a $50.00 redemption fee at the time
of redemption using your FirstRewards Mastercard.
Rental Car Travel Vouchers are valid at participating locations towards a rental made in accordance with the
terms and conditions of the rental agreement. The renter must meet the age, credit, and driver qualifications
in effect at the time and place of the rental and must meet the minimum standards of the rental company.
Advance reservations are recommended.
Charitable Donations are administered by Tisbest. The FirstRewards Plus Program is not affiliated with
tisbest.org or any of the charities available through them. Tisbest Gift Cards to be used for charitable giving
through tisbest.org to your choice of charity. Donations are not tax deductible. Please refer to tisbest.org to
review full program details and any additional processing fees.

Experiential travel and vacation packages are non-refundable and non-cancelable. You are responsible for
making reservations and completing any requirements to complete the reservation. The FirstRewards Program
is not responsible for any additional fees incurred related to booking or travel with a package.
Gift Cards, once issued are non-refundable and non-cancelable.
Transaction Eraser once issued is non-refundable and non-cancelable. Eligible transactions are any transactions
between $50 - $250 that have posted within the last 60 days.
Merchandise, once ordered, can only be exchanged in the event that it arrives defective or damaged. Note any
damages or shortages on the delivery receipt before signing to accept delivery from the carrier. A merchandise
Reward that is received damaged or defective may be returned to the shipper for replacement within thirty (30)
days of delivery. All parts, instructions, warranty cards and original packaging materials must be returned with
the merchandise Reward. There is no redemption fee.
Applicable manufacturers’ or providers’ warranties, if any, will be included with your merchandise Reward.
Warranty claims must be directed to the manufacturer or provider, as applicable. FIRST INTERSTATE BANK,
PROGRAM ADMINISTRATOR AND THEIR AFFILIATES MAKE NO REWARD, PRODUCT, OR MERCHANDISE
REPRESENTATIONS OR WARRANTIES, EXPRESS OR IMPLIED, AND DISCLAIM ANY AND ALL LIABILITY AS TO THE
CONDITION, QUALITY, MERCHANTABILITY OR FITNESS FOR A PARTICULAR PURPOSE OF REWARDS, PRODUCTS,
MERCHANDISE AND/OR SERVICES PROVIDED THROUGH THIS FIRSTREWARDS PROGRAM. FIRST INTERSTATE
BANK, PROGRAM ADMINISTRATOR AND THEIR AFFILIATES WILL NOT BE LIABLE FOR ANY DEFECTS IN REWARDS
OR DAMAGES RESULTING FROM USE OF ANY REWARDS PROVIDED THROUGH THE FIRSTREWARDS PROGRAM.

SHIPPING AND DELIVERY
Any Reward that is shipped will ship UPS, USPS, or an accepted domestic delivery service and will usually be
delivered within 2-4 weeks after your order is processed. Shipments cannot be made to a post office box, an
APO address, or outside the 50 United States.
COMMUNICATIONS
Current FirstRewards Point balances are available online to registered users at rewards.firstinterstate.com. First
Interstate Bank may also communicate with you via mail, email, text message or telephone from time to time
to alert you to special offers.
Despite the FirstRewards Program’s best efforts to ensure accuracy, printing and website errors may
occasionally occur. First Interstate Bank reserves the right to correct such errors at any time.
ELIGIBILITY
If your FirstRewards Mastercard Account is past due, overdrawn, or otherwise not in good standing, as
determined by First Interstate Bank, you will not be permitted to redeem FirstRewards Points and no
FirstRewards Points will be credited to your FirstRewards Account. In addition, your FirstRewards Mastercard
Account may be terminated and you may be required to forfeit FirstRewards Points in your FirstRewards
Account.
If your FirstRewards Mastercard Account is closed for any reason, whether or not it is delinquent or in good
standing, all FirstRewards Points in the related FirstRewards Account will be forfeited.
DISCLAIMER
Rewards are provided by Merchants who participate in the FirstRewards Program but are not affiliated with or
sponsors of the FirstRewards Program. Fulfillment of Rewards is the sole responsibility of participating
Merchants and First Interstate Bank is not responsible for the performance by any merchant, service provider,
or common carrier. First Interstate Bank is not responsible for inaccuracies in FirstRewards Point accrual; lost,
stolen or otherwise destroyed tickets, vouchers, certificates, gift cards, or merchandise; defective or damaged
Rewards; or damages or loss resulting from or arising in connection with the use of any Rewards.
You agree to hold First Interstate Bank and its affiliates, and any vendors or other providers associated with the
FirstRewards Program harmless if Program Administrator fails to meet its contractual or other obligations,
resulting in FirstRewards Program interruption or termination prior to your redeeming your FirstRewards Points
or receiving your Rewards. You also agree to hold First Interstate Bank and its affiliates harmless if a
FirstRewards Program Merchant files for bankruptcy, or otherwise goes out of business after you have
redeemed your FirstRewards Points for a Reward from the Merchant but before you receive or use the Reward.
TERMINATION OR CHANGES TO THE FIRSTREWARDS PROGRAM
The FirstRewards Program may be modified, suspended or cancelled, and the redemption value of already
accumulated points may be changed at any time without notice and without restriction or penalty. Changes to
the FirstRewards Program may include, but are not limited to, modifications that affect point accrual and/or
expiration of FirstRewards Points based on the point term, age and expiration date of the selected options(s).
Reward orders must be received on or before the FirstRewards Program ends and/or any applicable
FirstRewards Point expiration date. Contact First Interstate Bank for details on any current promotions affecting
FirstRewards Point accrual or redemption options. FirstRewards Points may be forfeited due to Rules violations.
First Interstate Bank may exercise its rights under this agreement at any time and a delay by First Interstate
Bank in exercising any right under these Rules does not mean that First Interstate Bank has waived that right.
This FirstRewards Program is void where prohibited or restricted by law. You are responsible for any applicable
federal, state or local taxes.

These Rules are subject to change at any time without notice. The most current version of these Rules is available
at rewards.firstinterstate.com. The use of your Account following receipt of these Rules, and any changes to
the Rules made available to you will indicate your agreement to the Rules.

Earn points every time you make a purchase with your First Interstate Bank FirstRewards® W o r l d Mastercard®. Use it
for all of your shopping and purchasing needs such as groceries and gas, to gifts, travel and paying bills. Your
points will add up fast, here’s how:

Earn 1 point for every dollar spent
Points cannot be earned on cash advances or balance transfers
Redeem points your way with

 Travel Rewards—fly when you want, where you want with no restrictions. With the
FirstRewards program you can fly on the airlines that operate in your own communities.
Points can also be redeemed for car rentals, hotel stays and cruises.
 Gift Cards— Redeem points for gift cards to your favorite stores or as gifts for employees.
Choose the gift card that lets you make purchases anywhere by redeeming for a First
Interstate Bank Mastercard gift card.
 Merchandise—Choose merchandise rewards for your office. FirstRewards has a list of the
top name-brand merchandise for you to choose from. Can’t find what you’re looking for?
Choose a Mastercard gift card to purchase the item you really want.
 Charity Donations—Help improve the world around you by redeeming points for a
donation to your favorite charity – nationally or locally
 Transaction Eraser – Reward yourself when you want, where you want and how you want.
Use your FirstRewards points to “erase” recent, eligible transactions from your statement.

Redeem points by visiting https://rewards.firstinterstatebank.com or calling 1-888-216-2893. Get the most out of your
FirstRewards card by checking out the FirstRewards website frequently to learn the latest on promotions and other
reward opportunities.
Don’t want to remember another password? I-Bank Online Banking customers can access their account directly
anytime they’re logged in.

World Mastercard

®

The FirstRewards® World Mastercard® empowers you with the flexibility to explore the places and pursuits that
mean the most to you. The combination of worldwide acceptance and valuable features means that you have the
freedom to do exactly what you want, whenever you feel like it. And travel-specific features and benefits give you the
exceptional service you've come to expect. Experience these benefits as a World Mastercard cardholder:
Mastercard Travel Services—Luxury Hotels & Resorts Portfolio—As a World Mastercard cardholder, you can now
enjoy a portfolio of some of the finest hotels & resorts the world has to offer — all presenting you with an exceptional
lodging experience. An experienced travel advisor will assist you with:
Exclusive Saving—As a World Mastercard cardholder you get the Best Available Price* at the time of booking.
Room Upgrades—Receive a complimentary upgrade to the next room category, based upon availability. If it is
available when you check-in, it’s yours!
Early Check-In and Late Check-Out—Receive extra time to enjoy the world’s finest accommodations—on the
house. All hotels and resorts offer early check-in and late check-out, based upon availability.
Breakfast for Two—Enjoy a complimentary breakfast for two daily.
Unique World Special Amenities—Enjoy exclusive amenities as unique as the properties themselves. From a
welcome basket of fruits to a gourmet dinner, these amenities help make your experience outstanding.
Amenities vary by property and are available at 5-star and select 4-star properties.
New Travel Promotions
Sail the Caribbean, bike through Italy, shop in Hong Kong or play in Vegas. Enjoy a world of special,
limited-time offers on lodging, cruises, vacation packages, tours, airlines and car rentals as a World Mastercard
cardholder.
Mastercard Experiences and Offers—Take a break from the everyday and reward yourself with something far from
typical. Mastercard Experiences and Offers opens the door to an array of valuable offers, upgrades,
experiences, and preferred access to suit your lifestyle. Take advantage of exceptional offers from upscale retailers and
world-class hotels and resorts. Escape from your daily routine by relaxing at a spa, going on a thrill-seeking adventure,
or taking in a round of golf.
Visit www.Mastercard.us/world for more details on these extraordinary advantages.
Additional terms, conditions and restrictions apply to each of the above benefits. For additional World Mastercard benefit details, terms, and conditions, please call the number on the
back of your card or visit Mastercard.us/world. Travel-related services are provided by or through one or more travel service providers and such travel service providers and benefits are
subject to change at any time by Mastercard without notice. All benefits are subject to availability at the time of booking. Benefits are subject to terms and conditions unique to each
travel service provider and /or destination. All travel and benefits require purchase with your valid World Mastercard card. The goods and services described herein are offered and
provided by third party merchants and Mastercard is not responsible for any losses related to the offer, fulfillment or use of the goods or services.
Terms and conditions: To take advantage of any World Mastercard travel benefits described here, you must book through Carlson Wagonlit Travel, Mastercard’s designated travel
agent for Mastercard Travel Services, and must reserve and pay in full for reservations, including deposit and final payment, with a valid World Mastercard. One of the travelers must be
the holder of a valid World Mastercard card issued in the U.S., Puerto Rico, the U.S. Virgin Islands, or Mexico. All benefit travel must commence before 12/31/13 unless otherwise noted.
All benefits and offers are subject to availability and are subject to change or cancellation without notice. Benefits may generally be redeemed multiple times, subject to specific travel
service provider limitations, and are valid on new bookings only. Multiple World Mastercard travel benefits provided by Mastercard Travel Services may be booked, but such benefits may
not be combinable with a travel service provider’s other offers.
*Best Available Price for World Mastercard travel benefits described here across all categories, “best available price at the time of booking” by the supplier is based on a comparison with
regular, published prices, excluding discounts or negotiated rates not available to the general public, such as: membership, corporate, government, promotional, group, employee,
packages, unpublished or rates only available on auction websites, phone only rates and same day mobile only rates. If within twenty-four (24) hours of a World Mastercard Cardholder’s
original reservation, Mastercard Travel Services is notified by Cardholder of a lower publicly-available rate that meets the exact criteria for the same supplier, Mastercard Travel Services
will contact the applicable supplier (including hotel, cruise line, car rental, tour company or airline) in an attempt to procure that same lower rate for the World Mastercard Cardholder, or
the World Mastercard Cardholder will be allowed to cancel his or her reservation, provided the World Mastercard Cardholder was not informed at the time of booking that the reservation
was non-refundable. With respect to airfares booked in the U.S., World Mastercard Cardholders may not be allowed to cancel a reservation after twenty-four (24) hours.
Blackout dates and additional terms, conditions and restrictions may apply. Specific travel benefits are not available for certain card programs. Please visit Mastercard.us/world or contact
one of our travel advisors for additional program details and terms and conditions. Airline booking and other fees may apply. Carlson Wagonlit Travel, Mastercard, World Mastercard
issuers and travel service providers are not responsible for printing or typographical errors. MASTERCARD, WORLD MASTERCARD, MASTERCARD TRAVEL SERVICES and the Mastercard
Brand Mark are registered trademarks of Mastercard International Incorporated. All rights reserved.

CONVENIENCE BENEFITS
Local Customer Service

Receive the service you’ve come to expect with First Interstate Bank. Stop by your local
branch or call our Billings-based customer service center to make a payment or to ask
questions regarding your account. We work together to provide the quality service you
deserve. To take advantage of our local customer service call 1-888-833-3454 or simply
email us at creditcards@fib.com.

eZCardInfo.com

Stay in touch with your credit card account 24 hours a day, seven days a week.
eZCardInfo provides you with information and services that make your credit card
easier to manage than ever before.
With the click of a mouse, view important information about your account including
balances, available credit, current and past statements and transaction information
since your last statement. You can also make your life simpler by signing up for
electronic statements or by paying your bill online Visit www.eZCardInfo.com to get
started!

Don’t want to remember another password? I-Bank Online Banking customers can
access their account directly anytime they’re logged into their First Interstate Bank
accounts.
SECURITY BENEFITS
Zero Liability

Have peace of mind knowing that First Interstate Bank won’t hold you responsible for
“unauthorized purchases” on your Mastercard. Zero liability applies to purchases made
in the store, over the telephone or online. Call toll free at 1-888-833-3454.

Mastercard® Global Service

Get emergency assistance virtually anytime, anywhere and in any language.
Mastercard Global Service helps you report a Lost or Stolen Card, obtain an Emergency
Card Replacement or Cash Advance, find an ATM location, and answer questions
regarding your account. Call toll free at 1-800-MASTERCARD.

24-Hour Cardholder Assistance

Receive call center support 24/7 that can help you with account information, card
activation or reporting your card lost or stolen. Contact 1-888-833-3454.

Mastercard® SecureCode

SecureCode helps ensure that only you can use your Mastercard when shopping
online. Using a private code tied specifically to your Mastercard account, SecureCode
helps prevent unauthorized purchases. For more details visit
www.Mastercard.us/securecode.

ID Theft Protection

Provides you with access to a number of Identity Theft resolution services, should you
believe you are a victim of Identity Theft. This product offering prevents identity theft
by monitoring the Internet, indexed and not, searching for compromised credentials
and potentially damaging use of cardholders’ personal information in order to detect
fraud at its inception.

Fraud Alert Management

Security is a top priority at First Interstate Bank that’s why we utilize a Fraud Alert
Management detection system which continuously monitors your First Interstate Bank
Mastercard activity to help identify and prevent fraudulent transactions on your
account.
If suspicious charges or transactions outside of your normal spending patterns appear
on your card, you may receive an automated phone call from Fraud Alert Management
on behalf of First Interstate Bank to verify the activity on your account. If the
Automated Call System cannot reach you, a temporary block may be placed on your
card until you validate the transaction/activity in question.

SECURITY BENEFITS CONT.
Fraud Alert Management Cont.

For Fraud Alert Management support within the US call 1-800-437-9392. If you’re
traveling or reside outside Canada or the US, you may obtain Fraud Alert Management
support by calling collect at 1-727-227-2447.

TRAVEL BENEFITS
Master RoadAssist

Obtain emergency roadside assistance such as jump-starts, tire changes, towing, and
gas delivery if you get stuck on the road. Service fees are pre-negotiated and billed to
your First Interstate Bank Mastercard account. Contact 1-800-MASTERCARD for more
information.

Mastercard AIRPORT CONCIERGE™

Enjoy the experience of first class, luxury service at the airport. Mastercard Airport
Concierge™ helps relieve some of the stress associated with air travel. As a World
Mastercard cardholder, you can arrange for a personal, dedicated “Meet and Greet”
agent to escort you through the airport on departure, arrival, or any connecting flights.
There are also certain airports where you can be expedited through the security and/
or immigration process. Available 24/7/365 at over 450 destinations worldwide,
Mastercard Airport Concierge is your passport to the finer side of air travel. Visit
www.Mastercard.com/airportconcierge for details.

MasterAssist Travel Assistance

Receive pre-trip information such as visa/passport requirements, immunization
information, and help with lost/stolen travel documents and luggage. With
MasterAssist, you’ll have access to a referral network of physicians, attorneys, local
embassies and consulates if you are traveling more than 100 miles from home. Contact
1-800-MASTERCARD for more information.

Travel Accident Insurance

Travel more safely with Travel Accident Insurance. As an eligible cardholder, you and
your dependents are covered automatically with travel accident insurance when the
entire travel fare is charged to your eligible Mastercard account while this insurance is
effective.
For more details, please write to the Plan Administrator:
Financial Institution Marketing Group
P.O. Box 31065
Tampa, FL 33631-3065

SHOPPING BENEFITS
Purchase Assurance

Protect your purchases. Purchase Assurance provides coverage for most items you
purchase using your Mastercard if the item is damaged or stolen within 90 days of the
purchase. Call 1-800-MASTERCARD for more information.*

Postmates

Postmates helps people unlock the best of their cities—and their lives, with an insanely
reliable “everything” network. Postmates is the first on-demand company—helping
customers in 650 US cities & Mexico get anything, anytime, anywhere. World
Mastercard cardholders receive a $5 discount on all orders over $25.

ShopRunner Program

ShopRunner is an online shipping service that helps its memebers save both time and
money. ShopRunner members receive unlimited free two-day shipping and free return
shipping on purchases at more than 140 online stores, including clothing, shoes,
beauty, electronics, home, gifts and more.

* Certain terms, conditions and exclusions apply. Visit www.mycardbenefits.com for complete program details.

ACH AUTO PAYMENT AGREEMENT
I (we) hereby authorize First Interstate Bank to initiate withdrawals from the account indicated below to pay on
credit card account number #
.
I (we) agree that your rights in respect to each withdrawal shall be the same as if it were a check drawn on my (our) account and
personally signed by either of us and that you shall be fully protected in honoring such a withdrawal. I (we) further agree that if any
such withdrawal is dishonored with cause, First Interstate Bank shall be under no liability whatsoever if such dishonor results in late
charges or revocation of my (our) card. If funds are not available, this agreement is null and void immediately.

CARDHOLDER NAME
CITY

STATE

ZIP

TRANSIT/ABA NO. __ __ __ __ __ __ __ __ __ Checking  Savings 

ACCOUNT #

(The first 9 numbers from the left at the bottom of your check are your Bank Routing Number.)

Indicate the date each month the payment will be applied to the credit card account:*
(Payment date cannot be between the 6th and 10th of the month.) If blank or if you have Special Billing
Options** payment date will default to the due date.

*If payment falls on a weekend or holiday the payment applies on the following business day.
**Special Billing Options are available for Business Customers only. Contact Payment Services for more information.

The amount of payment for my (our) credit card to be deducted monthly is (check one):
 The minimum required payment amount or percentage as disclosed in the cardholder agreement,

$20.00 dollars or 3%, whichever is greater.

 The total unpaid balance of the account as of statement date.
 Business customers only: The total balance due as of the statement cycle (credits received after

statement cycle will not lower the amount of payment applied. Credits will apply to the next month’s
balance).

 A fixed dollar amount which is greater than the minimum required payment but less than the full unpaid

balance. The fixed dollar amount to be withdrawn monthly is $ _______.____. Write out dollar amount.
___________________________________dollars.

 A fixed percentage of the balance which is greater than the minimum required payment but less than

the full unpaid balance. The fixed percentage of the unpaid balance to be withdrawn monthly is
_________%. Write out percentage amount. _______________________________percentage.

This authority is to remain in full force and effect until I (we) provide First Interstate Bank requesting that a
change be made or termination of this agreement. Notification to change or terminate must be received 30 days
prior to the date you would like the change or termination to take place.
I (we) understand and agree that in order for First Interstate Bank to make payments requested in this authorization form,
I (we) must have the payment amount available in my (our) account. I (we) further understand and agree that First
Interstate Bank shall not be responsible for any act or failure to act on their part, except in the case of gross negligence or
willful misconduct. Furthermore, I (we) agree to hold First Interstate Bank harmless from any claims, liabilities, attorney’s
fees and other costs and expenses of any and every kind and nature which may be incurred by them by reason of their
performance under this Authorization Form.

In addition, I understand that it may take up to 30 days from the date this agreement is received for the
ACH transfers to take effect. I agree I am responsible for any payments during this time frame.
Customer Signature

Date

If you have any questions, please call (888) 833-5434. Fax form to 406-255-5432, or scan and email to
creditcards@fib.com.

Save Money on Higher Interest Credit Cards
Yes! I want to save money by transferring my higher interest rate credit card(s) to my First
Interstate credit card. Please refer to the account terms and conditions for balance transfer
rate and fee information.

Name: ___________________________ Phone: _________________________________
Address:__________________________City______________State______Zip__________
First Interstate Credit Card Number # __ __ __ __ - __ __ __ __ - __ __ __ __ - __ __ __ __
Signature: _______________________________________________________________

Card Issuer #1 : ________________________________ Account No. __________________________
Payment Address: ___________________________________________________________________
City: ____________________ State: ________________ Zip: ________________
Amount to be transferred: $ _____________________ Issuer’s Phone No. ____________________

Card Issuer #2 : ________________________________ Account No. __________________________
Payment Address: ___________________________________________________________________
City: ____________________ State: ________________ Zip: ________________
Amount to be transferred: $ _____________________ Issuer’s Phone No. ____________________

Card Issuer #3 : ________________________________ Account No. __________________________
Payment Address: ___________________________________________________________________
City: ____________________ State: ________________ Zip: ________________
Amount to be transferred: $ _____________________ Issuer’s Phone No. ____________________

Upon approval, it may take up to three weeks to post the balance transfer transaction. This means
you may need to make a payment to your current account to avoid late payment fees.
Return this balance transfer form to your local branch or mail to:
First Interstate Bank
Credit Card Division
P.O. Box 30918
Billings, MT 59116-0918

